<html>
<title> - [H.A.S.C. No. 116-91] MODERNIZATION OF THE CONVENTIONAL AMMUNITION PRODUCTION INDUSTRIAL BASE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-91]

                          MODERNIZATION OF THE

                        CONVENTIONAL AMMUNITION

                       PRODUCTION INDUSTRIAL BASE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 22, 2020

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-144                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                                    
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
JARED F. GOLDEN, Maine
ANTHONY BRINDISI, New York
              Elizabeth Griffin, Professional Staff Member
                Jesse Tolleson Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1

                               WITNESSES

Daly, GEN Edward M., USA, Commanding General, Army Materiel 
  Command........................................................     4
Jette, Hon. Bruce D., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army..     5

                                APPENDIX

Prepared Statements:

    Jette, Hon. Bruce D., joint with GEN Edward M. Daly..........    33
    Norcross, Hon. Donald........................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bacon....................................................    50
    Mrs. Hartzler................................................    49
    Mr. Norcross.................................................    49

Questions Submitted by Members Post Hearing:

    Mr. Golden...................................................    53
    
   
MODERNIZATION OF THE CONVENTIONAL AMMUNITION PRODUCTION INDUSTRIAL BASE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Tuesday, September 22, 2020.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Donald Norcross 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE 
  FROM NEW JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Norcross. The hearing will come to order.
    Before the hearing officially begins, we have a few 
housekeeping notes. Even though right now nobody is 
participating remotely, we still want to make sure that the 
rules are set out and we have a full understanding.
    Those who are joining remotely must be visible on screen 
for the purposes of identity verification, establishing and 
maintaining a quorum, participating in the proceeding, and 
voting. Those members must continue to use the software 
platform video function while in attendance unless they 
experience connectivity issues or other technical problems that 
render them unable to participate on camera. If the member 
experiences technical difficulties, they should contact the 
committee staff for assistance.
    Video of members' participation will be broadcast in the 
room via television and internet feeds. Members participating 
remotely must seek recognition verbally, and they are asked to 
mute their microphones when they are not speaking.
    Members who are participating remotely are reminded to keep 
the software platform's video function on the entire time they 
attend the proceedings. Members may leave and rejoin the 
proceeding. If Members depart for a short while for reasons 
other than joining a different proceeding, they should leave 
the video function on. If members will be absent for a 
significant period or depart to join a different proceeding, 
they should exit the software platform entirely and then rejoin 
if they return.
    Members may use the software platform's chat feature to 
communicate with the staff regarding technical or logistical 
support issues only.
    Finally, I have designated a committee staff member to, if 
necessary, mute unrecognized members' microphones to cancel any 
inadvertent background noise that may disrupt the proceedings.
    Now we can begin.
    Today, the Tactical Air and Land Subcommittee meets in a 
hybrid session to receive testimony from Army witnesses on the 
state of the Nation's conventional ammunition production and 
efforts to modernize that process.
    The topic of today's hearing is intended to be a start, an 
assessment, where we are, what I hope will be a productive 
conversation between the committee and the Army on improving 
the state of conventional ammunition production facilities 
across the country.
    The ammunition that our Army trains and takes into combat 
comes from production lines scattered across the great 
heartland of this Nation. In fact, most of it is manufactured 
in the same facilities that produced the ammunition used to 
bring victories to the allies in World War II--shocking to me 
and certainly anybody listening. Those facilities look, operate 
much like they did in the 1940s.
    Producing ammunition is no easy task. Often, it is a job 
that--very careful and steady attention to detail. Obviously, 
the downsides are tremendous. You are dealing with explosives 
and chemical components. In order to ensure safety and security 
for the workforce, they must be supported with modern 
facilities that can do the job. Modern production processes are 
available. We need the will to assess and to do it.
    Many of the materials going in the ammunition production 
are foreign-sourced or single-sourced or sometimes both. 
Supply-chain disruption is an unacceptable risk, and we can't 
do it.
    So why, then, are fundamentally essential functions of the 
defense manufacturing done in museum-like conditions? What 
needs to be done is to improve this process. We will have that 
discussion. How can Congress assist the Army in this task? And 
how would these facilities meet the needs of a military in a 
true national emergency? These questions will be the focus of 
today's discussion.
    Today, we are pleased to have once again Dr. Bruce Jette, 
the Assistant Secretary of the Army for Acquisition, Logistics 
and Technology, as well as General Edward Daly, Commanding 
General of Army Materiel Command. We look forward to their 
observations, their ideas on how to modernize and improve 
reliability on the ammunition production.
    But, first, I turn to my friend, the ranking member for the 
TAL [Tactical Air and Land Forces] Subcommittee, Mrs. Hartzler, 
for any opening remarks.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Thank you, Mr. Chairman.
    Conventional ammunition and associated industrial base have 
tended to be an afterthought at times when discussing the 
defense budget, and we have seen where ammunition procurement 
accounts have been used as bill payers in the past. There is a 
tendency to take for granted that we will always have a 
responsive and resilient ammunition industrial base capable of 
rapidly surging to meet operational demands.
    The COVID-19 [coronavirus disease 2019] pandemic has 
amplified a problem that has been prevalent for quite some 
time: that the defense industrial base, especially at the 
supply-chain level, is fragile and may not be as resilient as 
we need it to be. This includes the Army ammunition industrial 
base, where we see many single points of failure and supply-
chain dependency on overseas sources for many critical 
materials.
    So I am very pleased that the chairman is holding this 
hearing today so that we can better understand what actions the 
Army is taking, as the single manager of conventional 
ammunition, to modernize this critical industrial base.
    I want to work with you both to ensure we have a resilient 
ammunition industrial base that is modernized and affordable, 
as well as ensure we have a healthy stockpile that can serve as 
insurance for Army readiness and credible deterrence.
    Today, I plan to focus primarily on the status of the 
government-owned, contractor-operated Army ammunition plants. 
There are five of these critical facilities; that includes Lake 
City, located in Independence, Missouri. These plants are vital 
to nearly all munition programs, and most have been around, 
like the chairman said, since World War II, and many are 
considered to be single points of failure.
    Over the past 3 years, the Army budget request has averaged 
approximately $455.6 million per year to address modernization 
efforts for all five of these facilities. Despite this increase 
and steady-state funding, there still appears to be significant 
upgrades needed for manufacturing, safety, and environmental 
issues, among others.
    I am wondering if there is a significant discrepancy 
between documented need and planned investment to sufficiently 
address all five facilities. And I expect our witnesses today 
to address this concern.
    So, in closing, I want to thank our witnesses for their 
dedicated service to this Nation, for your support of every 
soldier and each of their families, and I look forward to 
hearing your testimony.
    And I would add, in reading your biographies, I am sure 
West Point is very proud of both of you. So thank you for your 
longtime service to this Nation.
    I yield back.
    Mr. Norcross. Thank you.
    Interesting, in my district, directly across from downtown 
Philadelphia, the Delaware River, and we were home to three 
manufacturers from DuPont, who made all the powders back during 
the Second World War. They have all long since shut, and they 
have a legacy issue there that is just millions to clean up. So 
we have to take care of what we have.
    Obviously, when they built buildings back in the 1940s, 
they didn't know of many of the contamination issues that we 
are being faced with today. But it is also how we store it, how 
we transport it, the production. These are all things that we 
are looking to hear your views on.
    So I understand our witnesses have prepared a joint 
statement. Without objection, we will make that part of the 
record.
    I also understand, at the Army's request, General Daly will 
open with summary remarks. If we can keep it somewhere around 5 
minutes, because I think we are still at 2 o'clock for votes.
    General Daly. Absolutely, Mr. Chairman.
    Mr. Norcross. Terrific. General Daly, the floor is yours.

STATEMENT OF GEN EDWARD M. DALY, USA, COMMANDING GENERAL, ARMY 
                        MATERIEL COMMAND

    General Daly. Thank you, Mr. Chairman.
    Good afternoon, Chairman Norcross, Ranking Member Hartzler, 
and distinguished members of the subcommittee. I appreciate the 
opportunity to testify on the Army's ammunition organic 
industrial base, the OIB.
    On behalf of Secretary McCarthy and General McConville, 
thank you for your strong support and continued commitment to 
our soldiers, our Department of Army civilians, families, and 
veterans. And I can tell you that I am honored to be here today 
with Dr. Jette.
    Today's ammunition OIB includes 16 plants, centers, and 
depots, split between GOGOs [government-owned, government-
operated] and GOCOs [government-owned, contractor-operated], 
down from the height of 64 locations during World War II, and 
with plans to decrease to 14 in the next few years. With a 
workforce of more than 11,000 skilled artisans, these sites 
produce, store, distribute, surveil, and demilitarize 
conventional ammunition for the joint force.
    As you know, the purpose of the ammunition OIB is to 
support current munitions readiness, maintain surge capacity 
and capability, and modernize to support future weapons 
platforms. And we are successfully meeting requirements in all 
three areas.
    Army senior leader priorities are clear: People are the 
centerpiece by which we achieve readiness, modernization, and 
reform. And, unequivocally, our ammunition industrial base is 
tied to each of the Army priorities.
    I take my roles and responsibilities very seriously based 
on the command authorities given to me through title 10, by the 
Secretary of the Army, through Army regulations, which include 
distribution, storage, surveillance, de-mil, as well as mission 
command of depot infrastructure and energy and environmental 
programs across the ammunition OIB.
    My relationship with Dr. Jette in support of his designated 
roles both as the Army's acquisition executive and the senior 
manager for conventional ammunition, the SMCA, is critical. 
Together, we work collaboratively on manufacturing and 
production. Dr. Jette and I are 100 percent synchronized in 
support of the Army priorities in our roles and 
responsibilities and authorities. There is no daylight between 
us.
    As you will see in our 2020 SMCA report, which will follow 
later this year, we have continued success in production and 
industrial base management, stockpile management, and 
distribution management.
    With respect to the industrial base modernization, we have 
made significant investments--more than $3.2 billion since 
2009--in upgrades to facilities, infrastructure, and operations 
equipment.
    A few key examples include: an investment of nearly $400 
million in a new nitrocellulose facility at Radford, which is a 
base ingredient in the majority of DOD [Department of Defense] 
propellants; more than $200 million in a new nitric acid 
facility at Holston that recycles and reconstitutes critical 
materials used in insensitive munitions explosives; and at Lake 
City, upgrades for processes for primers, cartridges, and 
bullets, with 21st-century technology such as computer program 
logic, robotics, maintenance analytics, and prognostic sensors; 
and continuing planning for the new construction in support of 
the Next Generation Squad Weapon.
    The bottom line is that, while these facilities are 
successfully meeting our current requirements, we must continue 
to invest in modernization now to ensure our ability to meet 
future large-scale combat operation requirements.
    Dr. Jette and I are absolutely committed to a 
comprehensive, revolutionary, holistic, 15-year modernization 
strategy across our ammunition plants and facilities. And 
although we have made significant progress in investments, we 
still have a $14 billion to $16 billion cost to fully modernize 
our ammunition OIB to a 21st-century capability.
    We are refining our priorities that focus our modernization 
efforts on those projects that are most critical to support 
current readiness and posture capabilities for 2035 and beyond. 
Safety is one of our top priorities, and our envisioned end 
state is state-of-the-art manufacturing processes and machinery 
that have built-in safety standards across the ammunition 
industrial base. We are also committed to a protection of our 
critical capabilities and reducing our single points of failure 
as well as decreasing reliance on foreign suppliers.
    Distinguished members of the subcommittee, thank you again 
for allowing me to appear before you. Your continued support is 
enabling the Army to maintain and modernize our ammo facilities 
and deliver readiness to the joint force.
    I look forward to your questions. Thank you.
    Mr. Norcross. Thank you.
    Dr. Jette.

 STATEMENT OF HON. BRUCE D. JETTE, ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
                            THE ARMY

    Secretary Jette. Chairman Norcross, Ranking Member 
Hartzler, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, good afternoon. Thank you for 
your invitation to discuss the modernization of the Army's 
conventional ammunition production industrial base.
    I sincerely appreciate General Daly's opening remarks and 
am in complete agreement. I take very seriously the acquisition 
and logistics responsibilities of my job as ASA(ALT) [Assistant 
Secretary of the Army for Acquisition, Logistics and 
Technology] As such, I believe there is a real opportunity to 
better relate these two facets of this position within the Army 
ammunition enterprise.
    As General Daly has mentioned, today's Army ammunition 
production capability is comprised of a network of government-
owned, contractor-operated, GOCOs; government-owned, 
government-operated, GOGOs; and contractor-owned, contractor-
operated, COCOs, ammunition sites.
    I would like to focus my brief remarks on the challenges we 
face in the Army's GOCOs ammunition production capability in 
the United States and related supply-chain issues, though, as 
General Daly mentioned, most of what I will talk about in the 
GOCO sense also applies in the GOGO sense.
    As you know, most of today's GOCO buildings and 
infrastructures were built and produced during World War II. 
And across many decades and administrations, the concept of 
modernizing these facilities has stayed within the limits of 
keeping production capabilities safe within specific 
established procedures and sustaining the operations within an 
existing footprint.
    This is understandable, as ammunition production is a 
dangerous endeavor, and the safety of our workforce has been 
and will continue to be our highest priority. I think that, 
given that, we have been reticent to bring our production 
facilities into the 21st century. But we are at an inflection 
point, knowing that technology offers true modernization 
pathways that can significantly improve both safety and 
transform the production capability.
    Funding new facilities that are designed to embrace today's 
technology will improve workforce safety, enable environmental 
compliance--water, energy efficiency, conservation and 
resiliency--and establish more efficient and effective 
production capacity, resulting in a greater return on 
investment. To that end, we have embarked on an aggressive 
endeavor to establish a new, transformational vision to reset 
our modernization of the GOCOs.
    We must also address our reliance on foreign supply for 
many materials which support ammunition production, some of 
which are sourced from China or locations that supply lines can 
be threatened by adversaries.
    As part of developing an updated GOCO modernization 
strategy, we are conducting in-depth analysis into sources of 
supply, assessing single points of failure, and determining 
whether it is in our collective national interest to invest in 
secondary sources of supply, whether that be domestic 
production or through international partners or both.
    Mr. Chairman, General Daly and I are completely in sync on 
the need to shift our thinking on how we modernize the Army 
ammunition plants. Although it is difficult to modernize the 
ammunition industrial base while maintaining production 
continually to meet our current warfighter needs, there is 
greater risk in not doing so.
    There will be costs and regulatory implications we will 
need to navigate. This strategy will require sufficient, 
predictable, sustainable, and timely funding to ensure a 
successful outcome, and we look forward to working with 
Congress to realize this vision.
    Thank you for your support of the Army and its Army 
ammunition industrial base for both our current investment as 
well as as we transform to modernize for the future. We look 
forward to your questions.
    [The joint prepared statement of Secretary Jette and 
General Daly can be found in the Appendix on page 33.]
    Mr. Norcross. Thank you.
    General, you mentioned something in your remarks, that you 
were closing some facilities. Without even going into why you 
might be closing them, if we are looking at a single point of 
failure and we are narrowing where these facilities are by 
number, doesn't that increase some of the risk?
    General Daly. Mr. Chairman, so there are two facilities, as 
you know, in particular, that we are closing. One is based on 
BRAC [Base Realignment and Closure]. But we have looked at 
that, and we don't think that, based on the critical 
capabilities that reside in the organic industrial base, that 
the closure of those facilities will affect our vulnerabilities 
or increase our vulnerability with regard to ammunition.
    Mr. Norcross. So is it the production capacity or the 
amount of stockpiled material that is the bigger issue?
    General Daly. So one of the locations that we are closing 
was not a production and manufacturing facility; it was just a 
storage facility. And it is in mothballs and has been for the 
last couple years.
    The second one, based on BRAC, is related to chemical 
munitions stockpile reduction. And so, once that mission is 
complete, that will close in 2023.
    Mr. Norcross. So if you could just walk us through how you 
diffuse the risk when the production facility is there and the 
raw material, which some of it, very hazardous and explosive. 
How do you diffuse that from that single point of failure?
    Because, back in the 1940s, some of the things that we were 
concerned about overhead are now readily available for those 
who might want to disrupt it. Stockpiles, foreign material, how 
do you address that?
    Secretary Jette. So, Mr. Chairman, let me address some of 
the single point of failure.
    There are risks of concentrating particular production at a 
particular facility, in a single facility alone. Holston, for 
example, is the primary place where we produce most of our 
explosives used in bombs and other similar things. The facility 
itself is designed in such a manner that the production lines 
are tolerant. If one is damaged and incapable of producing, 
other lines can pick up some of the load. And there is enough 
space to produce additional lines at that facility. It still 
does have all of the production capability concentrated in one 
place.
    We have a similar issue for propellant, which is the 
material that goes into bullets and ultimately also into rocket 
engines and motors.
    So Radford, Holston, those two plants, in particular, are 
the single points of failure if they were to be limited in some 
capacity. But the historic approach has been to save money 
overall in the defense industrial base and reduce the number of 
places. As we said, from World War II, there were 70-some 
facilities, and now we are down to 14.
    The only way to get around that is to return other places 
to production. And, in that case, we are not going to be 
necessarily as economical as we are trying to be right now to 
keep our production numbers up.
    Mr. Norcross. So you talked about $3.2 billion as your 
capital plan moving forward. I am not sure how many years. I 
assume that means there was an assessment done across the 
board. What year was the last assessment made that you are 
driving the plan off of?
    Secretary Jette. So, Mr. Chairman, the base plan is the 
United States Army Ammunition Industrial Base Strategic Plan 
2025. It was published in February of 2016.
    The plan's fundamental approach to the problem is to take a 
look at the production requirements of the Department of 
Defense, what the responsibilities are of those facilities, and 
then to try and make sure that those facilities stay, number 
one, safe--because if capabilities go downhill and we do find 
that there are procedures that are not as safe as we think they 
should be, we should fix those.
    So there are various things we do to make the plants 
better, but we don't deviate a great deal from the 
methodologies we have used in the past. So we are just 
improving what we have been doing essentially since World War 
II in those plants. That is the plan. That is the one we are 
working to. That is the one that is POM'ed [program objective 
memorandum].
    What we have done in this past year is take a more 
reflective view of things. And I know I have had an opportunity 
to talk separately to a number of your staff after some visits 
to those facilities and say: We have technologies which are not 
part of improvements--for example, right now, people still 
handle munitions by hand, whereas we can use robotics and 
automation and other methodologies to handle them. We can get 
people separated from the explosives. They are doing it safely. 
We are improving the safety conditions by those methods, but we 
have the technology to get them out of the facilities.
    So the question then becomes, how do we improve the plants 
in such a way that it becomes more dependable, more reliable, 
and, above all, safer for the operations by the people who can 
transform from handlers of munitions to technicians at the 
facilities?
    Mr. Norcross. Thank you.
    Just one comment, and then we will turn it over to Mrs. 
Hartzler.
    The idea of making it safer for the workers, there is no 
question about that. But because these plants have grown up 
since the 1940s, they have a great relationship with their 
employees. You eliminate many of those jobs, there is a 
potential of that support also going there.
    Mrs. Hartzler.
    Mrs. Hartzler. Sure.
    Well, surge capacity is very, very important. And I know it 
is tricky, as you manage the ammunition plants, because you 
have to have the capability to surge but, at the same time, you 
may not need it all the time. And so I guess my first question 
is, what actions are you taking to improve the surge capacity 
and resiliency of the ammunition production industrial base?
    And then, secondly, can you walk us through the extent to 
which the industrial base is dependent on overseas sources for 
ammunition material?
    You mentioned in your opening remarks that you are 
currently doing an assessment to look at the vulnerabilities. 
We were provided with some slides ahead of time. This is just 
showing, in China, all the different chemicals and source items 
that originate and how they are used in various aspects of 
ammunition production.
    So if you could kind of expound on where you are at in that 
assessment and when you think you will be able to make those 
decisions and secure those secondary sources for those.
    And just in your testimony, written testimony, twice you 
mentioned, at the same time, we must implement a strategy to 
reduce single-point failures, reduce dependence on 
international, sole-source suppliers, some of which are not our 
allies, and develop international partnerships.
    So I guess my question is, along with this, is there a 
strategy? Are you in the process of just kind of assessing 
things and then you are going to write the strategy?
    So thank you.
    Secretary Jette. Let me see if I can get this in before my 
clock stops.
    So the first question about----
    Mrs. Hartzler. Surge.
    Secretary Jette [continuing]. Surge production. The largest 
challenge to surge production that we have had so far and 
recently was because the Air Force, in its engagements with 
ISIS [Islamic State of Iraq and Syria], used quite a few more 
bombs they had.
    So the first place we went is, the Air Force uses something 
called AFX [Air Force Explosive] in the bombs. It is a form of 
RDX [Research Department Explosive]. RDX is produced at 
Holston. And we had a capability to do 8 million pounds of it. 
And what we realized is we--that was our surge level, and 
really now our surge level is 15 million pounds. So we have 
invested a significant amount of money to increase that 
facility and be able to bring that production capability up to 
the 15 million pounds.
    To compensate for that, rather than impact the operational 
capabilities--we want to keep the RDX in the bombs that the Air 
Force is using; it is a safer munition--we have--you can also 
use TNT [trinitrotoluene]. TNT and RDX are similar performers. 
The problem is, TNT is not as safe in operation as is RDX. So 
the TNT is used in more benign training environments now. So 
the bombs--we mitigate the quantity problem right now by the 
use of TNT as a substitute for training bombs, and we use the 
RDX for the actual operational materials.
    So it gives us a breather. We haven't missed any of our 
production requirements. And we are continuing to meet the Air 
Force needs and the operational needs.
    For overseas sources, I would like to offer an opportunity, 
if possible, with the committee to have a classified discussion 
separately on some of the details of that, because----
    Mrs. Hartzler. Uh-huh. Uh-huh.
    Secretary Jette [continuing]. I really think that some of 
those details probably should not be discussed in open forum.
    But, on the other hand, I will tell you that we have 
detailed analysis down to sub-sub-suppliers, four and five 
layers in some cases, knowing exactly where all of the 
components for our munitions are coming from. It is really 
impressive, how good the ammunition enterprise has gotten into 
trying to work this.
    However, that is fine, but we have two paths forward that 
we are working on for these unique materials, and one of them 
is alternatives. So I will give you a simple example: lead-
based primers, primers used to cause the detonation of the 
rounds. Lead was in the primers. It is not much. They are 
small. When you fire a gun, you are in close proximity, you 
have lead in the vaporous air, you are inhaling lead dust.
    So, for health reasons and various other reasons, we 
decided we wanted to get away from lead-based primers and find 
an alternative. So Picatinny did extensive work and is 
continuing to do work on alternatives to lead-based primers so 
that we can still accomplish the same purpose as a primer but 
without using the same materials.
    What we are doing is trying to take a look to the list that 
you have in front of you and others, we are trying to do the 
same thing by having the people who are the experts in the 
chemistry and the objectives of the given chemistry we use, 
find alternative methodologies to achieve the same outcome, and 
then make sure that that is done with materials that we can 
source from the United States.
    A second approach is that some of the materials can be 
sourced in the United States. It is a rather lengthy discussion 
we should have about the challenges of producing materials. 
DNAN [2,4-Dinitroanisole] is a fundamental component to the 
artillery shells. We don't source any of it in the United 
States. And we could, but we are not set up to do that right 
now. It would take a decision to go on that path to make sure 
that we can transition to it.
    Let me hit the last one real quickly, the single point of 
failure worldwide. So we have two approaches to this that we 
are taking.
    The fundamental approach is that I have asked the program 
executive office [PEO] to work with all of the DOD staff, and 
AMC [Army Materiel Command] in particular, on alternative 
sources worldwide. So take a map, look at where we may have 
challenges if we had to deploy forces, determine what other 
ammunition sources of various types and calibers we might be 
able to find.
    Because ammunition is sourced elsewhere in the world by 
other forces and would work well with our munitions 
requirements. The problem is, we don't have contracts in place 
for small quantities, where we can hold those potential 
alternative manufacturing facilities accountable for the 
quality standards that we want on our munitions.
    So I have the PEO mapping that out right now so that it 
comes to current, real, full-up rounds--artillery shells, 
bullets, bombs, et cetera.
    The second thing is that we are looking at those single 
points of failure and determining how we can find alternative 
sourcing methodologies here in the United States and what it 
will take. And I think that that is part of this transition 
plan, transformational plan, is to generate an ability to 
produce some of these chemicals which are not being produced in 
the United States.
    And this is where, in my comments, in my opening comments, 
I said it will take financial decision making and regulatory 
decision making. There is a balance. Most of the reasons we 
don't make them have to do with regulatory requirements that 
make it very onerous and the financials that it would take to 
be able to produce them here in the United States.
    Mrs. Hartzler. Great. Thank you.
    I yield back.
    Mr. Norcross. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Dr. Jette, in your testimony, you state that over 80 
percent of Army Class A mishaps involving a fatality or 
property damage greater than $2.5 million are the result of 
human error.
    What trends have you identified that contribute to these 
errors? And while I understand there are long-term solutions 
that include automation, in terms of automating the handling of 
dangerous materials, what short-term steps are being taken to 
address these errors?
    Secretary Jette. This is one of the most important areas, I 
think, that we really need to address, is making sure that we 
take all the possibility of human error out of the equation.
    As I said, we are essentially making the explosives in a 
manner very much like we did in World War I, World War II in 
some--World War I in some cases, World War II in others. We 
literally have people standing under machines that are full of 
1,500 pounds of molten explosive, drooling it into artillery 
shells to fill them up, and then they push the carts out of the 
way. We don't have automation. We don't have robotics systems.
    The people have developed and the Ammunition Safety Board 
have developed methodologies--tactics, techniques, and 
procedures--to make sure that it is done as safely as possible 
under those given design considerations. We do consistent and 
continuous reviews of those processes and procedures. It 
doesn't mean that there is not an unforeseen problem that we 
couldn't encounter that could cause injury or death.
    The vast majority--and I went back to see exactly--asked my 
staff, tell me exactly what some--you know, we had a number--we 
had 13 people injured at Radford last year. What does that 
mean? Because, I mean, it could be anything from a slip and 
fall to a serious injury that didn't cost a life but was close. 
The vast majority of the injuries tend to be standard 
industrial injuries. I am not diminishing that we need to 
improve that--trips, falls, et cetera. That is part of the old 
facilities that we have that make it difficult to avoid those 
things.
    The second piece is, we have been, I think, while not good 
enough, consistently fairly good in trying to make sure that we 
don't have any deaths in the facilities. We have had three 
deaths on all of our facilities in the last 10 years.
    One was due to--there was a backhoe operator who was 
working in a pond for the Department of Energy that happened to 
be on our facility. He somehow turned the backhoe upside-down 
on himself, and he drowned. It didn't have anything to do with 
the operation of the plant.
    The other two, one had to do with clearing a vessel, 
because we do these melt batch systems. He was clearing a 
vessel with a wooden paddle, which had been done for years, and 
it detonated----
    Mr. Carbajal. Dr. Jette, I do appreciate the level of 
detail you are giving me.
    Secretary Jette. Yes, sir.
    Mr. Carbajal. I am going to delve into my second question, 
because I have limited time.
    Secretary Jette. Okay.
    Mr. Carbajal. The ongoing challenge facing government-
owned, contractor-operated Army munition plants, also known as 
GOCOs, is that the specialized workforce is aging. This 
challenge is not new or unique to ammunition production, as we 
see it affecting shipyards and maintenance across the 
Department.
    Dr. Jette, how do we better recruit the future specialized 
workforce? How are we connecting with technical schools that 
produce the men and women who have the needed specialized skill 
set?
    Secretary Jette. Let me pass, if I could. The GOCOs are 
fundamentally operated by General Daly, so if I could pass to 
him.
    General Daly. Congressman, thank you for that question.
    First of all, I have to tell you that we appreciate 
Congress' support in terms of direct hire authorities. Quite 
frankly, that has been game-changer in terms of bringing 
younger skilled workers into the workforce to posture for the 
future.
    In terms of as we modernize, the skill sets will migrate to 
more technical in nature. So it won't be a reduction in 
workforce, but it will be a change in the skill sets--an 
artisan workforce that, quite frankly, was much more manual 
labor.
    And based on the investments that we have made--to your 
point about safety, we have made some significant investments, 
and we continue to do so--but robotics, computer program logic, 
sensors, et cetera, will change the skill set that we need.
    I feel very, very comfortable that we have the authorities. 
And we are starting to look at partnerships with industry, 
partnerships with academia to get interns in, to hire them, so 
that they can be with us for decades to come, and it will 
reduce the average age of the workforce.
    Mr. Carbajal. Thank you, General.
    I yield back.
    Mr. Norcross. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chair. Appreciate both of you 
being here today.
    My first question--I am going to try to do four quick 
questions here--is for General Daly.
    I understand, you know, we have this World War II ammo 
production infrastructure. What does a modernized 
infrastructure here look like to you?
    General Daly. Congressman, thank you so much for that 
question.
    So, quite frankly, what we have done to this point--and, as 
I mentioned in my opening statement, we have made significant 
investments. But, quite frankly, I think, in terms of 
revolutionary change, to make them 21st-century, what I would 
envision--and we have done some of this, but it has been more 
discrete than holistic--and that is really computer program 
logic; it is robotics; it is maintenance analytics and 
predictive sensors on equipment so we know when that equipment 
is going down; continuous process management to get at quality; 
and, in addition, plant layout and design, as Dr. Jette 
mentioned earlier.
    Mr. Bacon. Uh-huh.
    General Daly. All that, in my mind, leads to improved 
quality, increased production capability to get at the surge 
point that Ranking Member Hartzler talked about, and then also 
safety of the workforce.
    Mr. Bacon. Thank you. I appreciate you putting a little 
meat on the bones there.
    And, Dr. Jette, you talked a little bit already with Mrs. 
Hartzler on how China has some of these critical materials for 
our ammo production. How hard is it going to be to diversify to 
ensure that our supply base doesn't run strictly through China?
    Secretary Jette. Sir, we are in the throes of trying to see 
what it would take to be able to wean ourselves from all of the 
materials.
    The materials that we do get from China are not large-
volume materials. For example, the DNAN I spoke of earlier, we 
get millions of pounds of that. That tends to come from India, 
not China. However, there are small materials in detonators and 
in pyrotechnics, these types of things.
    In some cases, the sourcing is because that is where God 
put the stuff. And so we don't dig much of it up here. They dig 
it up over there. We have to bring it here, or we have to find 
an alternative.
    And, to this point, the price model has said there is no 
reason to do this research. This is one reason why I think we 
need some degree of a revitalization of our research and 
development activities specifically with respect to our 
energetics and our pyrotechnics.
    That is not the nice solid answer I have given you--I got 
it down in 5 years. We are having to chip through each one of 
these and look at these: Can I source it somewhere else? Why 
don't we produce it here? That generally is because of 
facilities that don't exist or because it is going to be so 
expensive to meet the pollution-abatement requirements that it 
is unaffordable at the prices I can currently get it from from 
overseas sources.
    Mr. Bacon. Uh-huh.
    Secretary Jette. So we are having to work through those 
issues in all of them.
    Mr. Bacon. Well, we are glad you are digging through it, 
because it is an important question. We don't want to be 
dependent there in a time of crisis.
    What is your mindset on depleted uranium? You know it is 
very important for some of our ammos. Are there smart 
alternative, or is this the best alternative?
    Secretary Jette. So I am deviating a little bit. This is a 
little bit outside of the ammunition per se. But I do 
understand--being a materials scientist, I understand a bit 
about depleted uranium. And if you really want to go into 
detail, we probably need to go to a different setting as well.
    Mr. Bacon. Uh-huh.
    Secretary Jette. Uranium is a hard material. Crystalline 
structure makes it very strong. It is a high-temperature 
material, so it is very good at penetrating a lot of mass. You 
can get a lot of energy in that rod when it hits a target, and 
it gets a great deal of penetration.
    At the same time, it has toxicity issues. Radiation is 
generally not a really relevant issue with depleted uranium. 
You have removed the radioactive components from it. Though it 
is, to a minor degree, present.
    Tungsten and some other refractory materials provide 
similar capability, and we have been looking at how we can 
employ those in an alternative fashion to do them. We have sort 
of started there, came over to DU [depleted uranium], and now 
we are sort of looking back again at those.
    And we can probably give you a little bit more detailed 
discussion in a different forum.
    Mr. Bacon. Okay. I will come back to you. It is an 
interesting subject.
    It is going to be hard to get this in in 30 seconds, but I 
will give it a quick stab.
    I know that we are trying to put as much lethality on an 
individual warfighter that we can. Do we have the requirements 
for the Individual Assault Munition solidified? It is pretty 
much having a better weapon for a single soldier, shoulder-
fired. Have we solidified those requirements?
    Secretary Jette. To give you a clean answer, I am going to 
come back to you with one for the record. I don't believe that 
there has been a significant change to the requirement----
    Mr. Bacon. Okay.
    Secretary Jette [continuing]. As I know it right now, and I 
will just have to check on that.
    [The information referred to can be found in the Appendix 
on page 50.]
    Mr. Bacon. Okay. Thank for your time.
    Mr. Chair, I yield.
    Mr. Norcross. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    Sir, in your written testimony, you say that, to fully 
modernize, improve, upgrade technology, et cetera, between 
fiscal year 2021 and 2035, it would be roughly $14 billion to 
$16 billion. Back of the envelope, that is about $1 billion a 
year.
    You mentioned earlier in your testimony today that, I 
think, a strategy was outlined in 2016. What has been the 
annual authorization and appropriation for ammunition 
modernization to date, or at least since 2016 to date, roughly?
    General Daly. Congressman, to this point, what has been 
appropriated from 2016 to now between both the GOGOs and GOCOs, 
it has been just under $2 billion.
    Mr. Brown. Under $2 billion, 4 years, so considerably less 
than the $1 billion per year.
    Now, has that appropriation, has that been, to your 
knowledge, above, the same, or below the President's budget 
request?
    General Daly. So, Congressman, quite frankly, that has been 
right about what we have asked for in the President's budget.
    When we talk about the $14 billion to $16 billion going 
forward, as Dr. Jette mentioned, we are in the process of 
refining that to focus on the most critical projects that will 
yield the effects in the organic industrial base and bring them 
into the 21st century and, as mentioned earlier, that focus on 
reducing the vulnerabilities at our single points of failure 
and, quite frankly, also at improving the capabilities that are 
unique to the organic industrial base.
    So I see that number refining over time, but that just 
gives you a ballpark on what it had been as we take this new 
approach.
    I don't necessarily think it is going to get more--be more 
expensive. I think it is more a case of a focused investment 
strategy that we will bring forward through the Army leadership 
into the President's budget.
    Mr. Brown. Focused, a little bit more expensive than what 
we have been paying to date, but--and I get it, but let me ask 
you this question.
    So, you know, I am hearing about technological--
incorporating better technology into the plants. It sounds like 
there is some facility, in terms of realty upgrades. I am 
assuming there is some workforce training that goes with that.
    So can you briefly describe to the committee--I see two of 
the three, sort of, critical players here, and the other one 
being the Assistant Secretary for Installations, Environment 
and Energy. Can you briefly describe to us how you worked 
together to develop that master plan, that modernization 
strategy?
    General Daly. So, Congressman, great question.
    I will tell you that, not only is there a great linkage 
between Dr. Jette and I, but also there is an inextricable link 
between the both of us and Honorable Beehler in his role as the 
Assistant Secretary of the Army for Installations, Energy and 
Environment.
    And, quite frankly, Honorable Beehler is in the process of 
working an Army-wide installation strategy for the future that 
tackles energy, environmental programs. When you juxtapose what 
we are trying to do with the organic industrial base with what 
he is doing, that will be linked in.
    And the great thing, quite frankly, is that the Army senior 
leaders have given to Dr. Jette, myself, and Honorable Beehler 
the funding stream recommendations to them on how we move 
forward in this holistic approach. So it is not just on 
facilitization of the organic industrial base; it is really 
focused on this piece like you mention--protection, energy, 
environment, et cetera.
    Mr. Brown. And let me just, with the last minute and 20--
and maybe it is picking up where Representative Bacon left off. 
But, you know, I think about the Army modernization priorities 
under the Futures Command. And, specifically, I think about 
long-range precision fires and soldier lethality, the new Next 
Generation Squad Weapon.
    Are any of the activities in those lanes influencing what 
you need to do in the ammunition modernization strategy?
    Secretary Jette. Yes, sir.
    So let's take the last example that you raised. We have 
Next Generation Squad Weapon, next-generation soldier weapon. 
The caliber is going to be 6.8. We don't produce 6.8 right now. 
So we are going to have to have a facility to be able to 
produce 6.8-caliber munitions.
    There are three vendors that are competing. Two of the 
vendors have a polymer case. One vendor is a brass case, as we 
currently produce. And keeping my acquisition hat on here, I am 
not choosing anything, but if it is the brass case, for 
example, Lake City has a facility already capable. We retool 
them, and we could have one line producing 6.8 in a few months.
    If one of the polymer cases take place, what we are likely 
going to do is use their facilities to produce our interim 
supplies while we develop in-house production capabilities, and 
they become an ability for surge at a later date.
    But it will require retooling and, frankly, 
refacilitization, for which we have put in our POM funding to 
this point. So we are working towards it. Just waiting for the 
solution.
    Mr. Brown. And I assume, for long-range precision fires, we 
will take that up in a classified setting?
    Secretary Jette. Yes, sir.
    Mr. Brown. All right.
    Secretary Jette. But in some aspects of it, it is very much 
the issue of the fillers. But, again, it goes back to, if I 
have to go farther, I tend to have less filler; if I have to go 
with less filler, can I move to a more energetic material as a 
filler? And we are still working those issues.
    Mr. Brown. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Norcross. Thank you.
    Just a followup clarification: Retooling is difficult, but 
it is cut-and-dry. Are the base materials changing? So if you 
are looking at stockpiling, you know, that would change the 
formula and then expirations?
    Okay.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Jette, General Daly, thanks so much for joining us.
    I wanted to refer to a lot of the work the committee has 
done on the Small Multipurpose Equipment Transport, better 
known as SMET.
    We know these robotic mules can do a lot to help folks in 
the infantry. We know, too, as we are asking our soldiers in 
the infantry to do a lot, we are asking them to carry 
particularly heavy loads, lots of equipment, we know the 
biggest weight component of that is ammunition. And we know, of 
the ammunition component, brass makes up a really, really big 
part of that.
    I do know that the Army has had a lightweight ammunition 
requirement for about 40 years, and it hasn't gotten any 
lighter.
    So I understand there are a lot of strides that have been 
made in polymer-cased ammunition. In fact, I have had the 
opportunity to shoot some, both here in the range in Rayburn 
and then elsewhere. Pretty amazing ammunition. This 30 percent 
reduction I think goes a long way to increase mobility and the 
flexibility that folks in the infantry have.
    Dr. Jette, could you provide us an update on where the Army 
is in filling this requirement? And how far out do you think we 
are from fielding the next-generation ammunition? And is the 
polymer-cased ammunition the direction that you believe things 
are going based on the technology and the research?
    Secretary Jette. Let me touch the last question first so 
that I stay out of trouble on the first set. Because it is an 
ongoing acquisition, I would prefer not to interject my 
personal opinion as to which way might be a better way to go.
    Mr. Wittman. Uh-huh.
    Secretary Jette. What I can do is I can describe the 
circumstances around this. And it is a great question.
    I will tell you that I was a tanker for 28 years in the 
Army. I spent 2\1/2\ years in Afghanistan and Iraq while in 
uniform, and I never was on a tank; I had to walk everywhere. 
And I really have a great sympathy for infantrymen and all the 
stuff they have to carry.
    At one point, I was also the program executive officer, or 
PM at the time, but the PEO--what is now PEO Soldier. So I had 
all of those uniforms, guns, equipment, et cetera. It has been 
my objective to try and find a way to lighten that soldier's 
load from the very beginning.
    If I have my basic load, it is 220 rounds. If I fire those 
rounds, I have 11 pounds of debris at my feet.
    Mr. Wittman. Yeah.
    Secretary Jette. That means, in order to get 220 rounds' 
worth of munitions downrange, I've got, only 2 pounds of it is 
effective munitions. The rest of it is packaging.
    Mr. Wittman. Right.
    Secretary Jette. It has been a significant problem with 
trying to find an alternative that has been acceptable in all 
environments. It has to be able to withstand cold. It has to be 
able to withstand shock. It has to be able to--wind, cold, 
getting dropped, does it crack, things like this.
    Mr. Wittman. Right.
    Secretary Jette. When it tries to get jammed into a gun, 
does it crack open if it doesn't get in there just exactly 
right?
    So there are real issues with trying to go to polymer 
casing. But where it was in 1998, when I was the PM for all of 
these systems, is different than where it is today. So I do 
believe that we are making significant headway in having 
alternatives to brass casings alone.
    Reducing that by one-third, frankly, my experience with the 
infantry means that they will add one-third more ammo. And I 
believe that this goes exactly to my issue about trying to 
enhance our ability and our research and development aspect of 
things. Because I think that polymer casings may be--may be--an 
intermediate state in going to perhaps even caseless 
ammunition.
    Mr. Wittman. Gotcha. Yeah, I think that is a great point. 
We have had a chance to look at both the polymer case, the 
caseless ammo. Obviously a lot of development areas there.
    Let me ask this. We currently, in producing ammo, as it 
stands today, we have government-owned, government-operated 
facilities and government-owned, commercially operated 
facilities. If we were to transition to the next generation of 
ammo, a lighter ammo, obviously a massive change in 
manufacturing in the large scale. Tell me, what would the 
effects be in transitioning that? Would we have a proper 
transition to make sure that the industrial capacity there that 
we have, that we need, that we have heard about can be 
maintained and transitioned to this new technology?
    Secretary Jette. Yes, sir. The critical aspect of being 
able to go to an alternative structure, polymer case, that type 
of thing, is tied up into the IP [intellectual property]. These 
companies develop them on their own nickel; they own the IP. 
They will have production facilities, and we will be able to 
buy from those production facilities as well, because they will 
probably extend them into the commercial marketplace.
    But the other side of things is that, as part of our 
solicitations, nailing down the ability to use that IP in our 
own facilities and them assisting us in facilitizing those 
facilities is essential.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Norcross. Ms. Sherrill.
    Ms. Sherrill. Thank you both for being here today.
    Just to take it back a step, as we are talking about all 
the money we are going to spend on modernization, we are 
talking about government-owned, contractor-operated facilities. 
So I am wondering what the tradeoffs are of having an 
industrial base that is in an industry with no consistent year-
on-year manufacturing requirement.
    What risk does the government take on versus what risk do 
contractors take on? And, specifically, is there room for 
contractors to pay more into this modernization effort, or do 
we feel that, given their current profit margins, we would 
drive them to discontinue supporting the effort?
    Secretary Jette. Thank you. That is a great business 
question.
    I have taken a look at some of the motivations, trying to 
drive vendors to put their own money into the facilities 
themselves. Generally, what ends up happening is that they put 
money into the facilities, but it ends up on some of their 
calculation sheets later on, and I am paying for it over longer 
term periods. So they justify a larger G&A [general and 
administrative] or overhead rates, and I end up paying not just 
on that facility but the rate gets justified across the 
industry.
    And I also find that I am not sure that I see them 
investing effectively in the things that make a difference to 
me; they make a difference to their profit margins.
    So my view of this is: It is our facility. We should have a 
good plan. We should decide on what we want to invest in. And 
then we--this is the United States military's, the Department 
of Defense's industrial base for munitions. We need to own 
that. Not have anything beholden, IP-wise or any other way, to 
the defense industry or any other supplier.
    Ms. Sherrill. But is there room to raise the rent on some 
of our contractors?
    Just because I'm just wondering--I just don't know enough 
about how much money they are making off these enterprises and 
how much the U.S. Government is supporting that profit. And so 
do we need to take a look at what more some of our contractors 
could be doing to pay into the system? Because we have a heavy 
burden to modernize these facilities.
    Secretary Jette. Yeah, no, that is a great question.
    So we have begun looking at--I have begun looking at the 
contracting methodologies we are applying to these facilities. 
It is basically, we keep buying and selling to ourselves. And 
we do that because we think that that is an easy way to manage 
the overall pricing structure.
    The problem with that is, at the far end, we are always 
trying to push the price down, which means it cascades back 
down through the prices that are proposed to us by the 
industrial base, the contractors. And the end state of that is, 
they are always trying to save money on their margins. We 
really can't see in it, because we just bid prices at both 
ends, and the end state of that is the lawns don't get mowed, 
the fire departments don't get done right.
    So what we have begun to do is, starting with Radford, take 
a specific look at the contracting methodologies we have put in 
place there and then follow--you know the old saying--follow 
the money: Who buys what materials at what point? How does that 
fit into the contract? How do we need to modify the contract so 
the government gets a better position on that?
    I want industry to want to work with us, but what I don't 
want to do is have a blind eye towards the potential areas 
where they can make unexpected profits. When they finish a 
material, I want to make sure that I know where it is going, 
who is selling, who they are selling to, who they are buying 
from.
    In Lake City, for example, 50 percent of the facility's 
production capability is dedicated to commercial products, 
because we have this surge capability, and that is part of the 
deal. I am not sure that we are breaking even-steven on that. 
So we are doing an investigation to determine whether or not 
the government is fundamentally subsidizing commercial 
production or not.
    So it is a good question. I wish I could give you the 
concrete answer with footnotes, but we are in the middle of 
trying to determine it right now.
    Ms. Sherrill. Great. That is good to hear you are looking 
into it.
    And then you were speaking earlier about some single-source 
materials that we don't produce here, and we have chosen at 
this point to import them rather than produce them here. And 
when you said it was a regulatory issue, especially for some of 
our chemical materials, when you are talking regulatory, are 
those environmental regulations?
    Secretary Jette. Yes, ma'am, the vast majority of them are 
environmental.
    In production of DNAN, you start with benzene; you go 
through several intermediate states. Some of those materials 
have a great deal of controls on these intermediate materials. 
We wouldn't leave them there, but just the fact that we produce 
them, you have to have a lot of environmental controls, which 
impacts the cost of the facility production.
    There are alternative methods of producing them, but then 
the price of the materials go up. So that is the challenge that 
we are dealing with. And then we try to compete against the 
price that is half the price if I buy it.
    And I think we need to make a hard determination as to what 
percent of our supply needs to be unquestionably domestic and 
what our surge capacity needs to be.
    Ms. Sherrill. And then, finally, as the Army seeks to 
modernize both the process and the facilities for producing 
munitions and the actual conventional munitions being produced, 
what is your vision for the development--and we have spoken a 
little bit--and manufacturing of the next-generation, 21st-
century, small-caliber munitions?
    Secretary Jette. So the facility we would produce the small 
caliber, such as the 6.8, would be at Lake City. And it all 
depends on which direction we go. If we go the brass casing, we 
have some very modern production lines that are at Lake City. 
They are very high-speed, very fast in production. We retool 
them and we can add additional lines for relatively small 
expense. And that would be one direction, if we have the brass 
case.
    If we don't, as part of their development effort, the two 
that are building the polymer cases are also building the 
technology to produce the polymer cases. And then that is part 
of this issue of us ensuring that we have a license to be able 
to use those technologies and have them help us establish our 
own production capability.
    Ms. Sherrill. And a final, just real quick: And what did 
you say the timeline was of brass? You thought you could do 
that in what timeframe versus the polymer in what timeframe?
    Secretary Jette. Brass is changing tooling. A few months?
    Ms. Sherrill. Uh-huh.
    Secretary Jette. Whereas--if I wanted to get quickly into 
production, a few months on a production line, because I would 
just have to retool and change jigs. If I am going to the 
polymer casings, I am going to have to build a new facility.
    But, in the end, we expect to build a new facility in 
either case.
    Mr. Norcross. Thank--Ms. Sherrill, are you finished?
    Ms. Sherrill. I yield back.
    Mr. Norcross. We will have another round, if you want to 
hang on.
    I want to follow up with exactly what she is talking about. 
The single source you have identified as a major concern. The 
tooling we talked about.
    So the base material across many of the lines has been 
there since the 1940s. There are some new ones. So you lay that 
up against where it is coming from and the risk associated with 
it.
    So the question that I think of is stockpiling. Well, it 
sounds good, but there might be an expiration date to, 
literally, the amount that goes there. But that minimizes your 
single source, particularly if you can do quite a bit, just 
like our national oil reserves.
    Do you have faith in the materials that are most at risk 
that you could build up a stockpile, or is there a reason why 
we cannot?
    Secretary Jette. Mr. Chairman, I am going to share the 
answer here, because I think General Daly can contribute as 
well.
    We do stockpile. We do stockpile precursor materials, and 
we do stockpile end-state items, to include materials that are 
of importance for us that are sourced from elsewhere.
    Mr. Norcross. Uh-huh.
    Secretary Jette. Right now, we believe we are probably in 
an acceptable mode for our ongoing consistent production, and 
in some cases there is enough material for some surge capacity. 
But if you have any sort of a protracted operation and you had 
your supply cut off, eventually you run out.
    So, in the end, I believe that you really want to be able 
to have an alternative source--either an alternative product 
that does the same function or an alternative source that is 
either domestic or within your ability to access in an 
operational environment.
    Mr. Norcross. So private industry, in many ways, steps up 
to the plate, but it is particularly difficult here. Why we 
have our own.
    Have you been approached by some unique manufacturers on a 
single line of munitions that they think they can do better 
than you are? Or is it the uniqueness of what we are building 
that they are unable within a price point to come in?
    Secretary Jette. Mr. Chairman, I will give you a--I will 
take that question for the record. I don't believe anyone has 
ever come to us, but that doesn't mean I know about all 
potential approaches. But I will come back to that.
    [The information referred to can be found in the Appendix 
on page 49.]
    Secretary Jette. Given that I am pretty confident that we 
haven't been approached there, the fundamental--it goes back to 
these hurdles. You have three hurdles at hand. One, the capital 
investment that is necessary in order to make a facility that 
can actually meet all the EPA [Environmental Protection Agency] 
and other standards, safety and EPA standards, is expensive. 
The second one is these EPA standards, so that we make sure 
that we--and operation, so that we don't have pollution in 
these intermediate materials. And the third one is the 
fundamental cost of the material at the far end.
    Oh, I am going to add one more: liability. If I put that 
plant--these are explosives. If I put that plant in a place--I 
have to put that plant in a place where I have some 
indemnification from possible liability should the plant blow 
up.
    What we have actually begun taking a hard look at is 
whether or not we might solicit companies to use our land, much 
like we have done with the housing side of things.
    Mr. Norcross. Uh-huh.
    Secretary Jette. We have the land. You get a long-term 
lease. We will give you the lease. We will indemnify you. You 
are on our facility. And, oh, by the way, you build it, and we 
will buy it from you, and here is our long-term plan.
    So we are looking at trying to do something like that. That 
starts eating away at a number of these issues. But I think we 
still have an issue associated with the capital investment at 
the front end to get into the business and the potential 
challenges of trying to meet all the EPA standards.
    Mr. Norcross. One last question for each of you.
    General, in what we are talking about today--pretty wide-
ranging--what keeps you up at night? What is that one item?
    General Daly. Mr. Chairman, thank you for that question.
    I will tell you that our focus, based on the Secretary of 
the Army and the Chief of Staff of the Army's priorities, five 
areas. And because we focus on them all the time, I don't know 
that I stay up at night thinking about them, because we are 
giving it the right focus right now.
    The first is that we meet not only current but future 
ammunition requirements in support of the National Defense 
Strategy.
    The second is that we modernize appropriately. So all the 
things we talked about, plus multipurpose facilities, et 
cetera.
    The third is that we protect our organic industrial base 
assets, because they are vulnerable, as you mentioned.
    And the fourth has to do with reducing the single points of 
failure and the reliance on the 55 foreign suppliers that we 
can trace to at this point.
    And then the last is always focusing on our people and 
safety and the workforce of the future, as, especially on the 
GOGO side, the aging workforce.
    I think, if we continue to focus on those five areas, we 
will be successful for the future. Thank you.
    Mr. Norcross. Thank you.
    Dr. Jette.
    Secretary Jette. Sir, mine is very similar to General 
Daly's. Fundamentally, I think we are meeting our obligations 
and are in a good position to meet any current needs and 
foreseeable surges. So that is not keeping me up at night.
    I do probably worry most about the safety aspects of our 
current facilities, primarily because I think that our current 
approach is to improve good safety facilities, safety within 
the facilities we have, but that is not what is possible.
    And what is possible--as I said earlier, three deaths in 
the last 10 years on our facilities. Two of them were related 
to the manufacturing process. That is two too many.
    Mr. Norcross. Uh-huh.
    Secretary Jette. And we don't need to have that 
circumstance happen anymore. So I do not want to be the 
ASA(ALT) and get a phone call that there is another death on 
something I could have provided an improvement to.
    From the national defense, I am meeting the requirement. I 
have it safely operating. I need to fill this hole called 
``supply chain.'' I need us to not have a supply problem from 
anywhere outside the United States.
    Mr. Norcross. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. I appreciate your focus on safety of the 
people as being the most important thing as we look at the 
challenges and providing the ammunition to our warfighters. And 
I want to mention my constituent Lawrence Bass, who lost his 
life there at Lake City in an explosion 3 years ago.
    And I am excited about the modernization efforts and 
appreciative of it so that that doesn't happen in the future. 
But when that happened--talk about single point of failure--
Lake City was shut down for many months as, first of all, 
accident reviews were underway, trying to figure out what 
happened and what could be done to avoid this in the future, 
and then rebuilding the explosive area.
    And just wanted you to expound a little bit on the 
contingency plans that you have. You say you have identified 
the single-point-of-failure places in our industrial complex 
here, but what are the contingency plans?
    I know, if I remember right from Lake City, we were able to 
call upon some industry, some private industry, to help 
backfill some of that material that is needed. But could you 
expound a little bit on the contingency plans you have in 
place?
    General Daly. Ranking Member Hartzler, so I will defer to 
Dr. Jette on the suppliers, but, in terms of Lake City--in 
fact, I just visited Lake City last week. And so, as you 
mentioned, a tragedy that occurred in April of 2017. And that 
was related, as you know, to mixing of tetrazine for primers.
    So the way forward is, we have relooked the way we 
manufacture the primers and have adjusted internal to the 
plant. And then getting at, as we modernize, making sure we 
have multipurpose facilities so that every line can do 
different functions. So it is just not 5.56 millimeter on one 
line and 7.62 millimeter on a second line, but they are 
multipurpose so that we have flexibility on an installation.
    And then, to Dr. Jette's point, looking more holistically, 
where we can get efficiencies and additional capability in 
other locations, not just in the organic industrial base, but 
with private industry.
    Secretary Jette. Yes, ma'am. And, you know, I didn't--
Lawrence Bass's death was tragic and should not have occurred. 
I am not sure that we--we thought we were doing the right 
thing. He was performing duties in accordance with what the 
procedures were. The problem was the procedures didn't account 
for all possible outcomes.
    And so that is one of the reasons why, you know, his death 
is, in fact, a catalyst to my insistence upon transforming our 
approach as opposed to modernizing under the current 
circumstances.
    He should never have been in that close proximity, where 
that event could have happened. And should it have happened 
with a machine, I can buy another machine.
    Mrs. Hartzler. Yeah.
    Secretary Jette. So, while tragic, it has been a motivator. 
And I am just totally in line with what General Daly said about 
this.
    From the aspect of can we find commercial alternative 
sourcing for some of the manufacturing capabilities, it depends 
on where we are in the line, as to whether or not that would be 
easily done in alternative facilities in the commercial sector.
    Munitions manufacturing, bullet manufacturing--if they are 
basic bullets, then there are alternative sources within the 
United States that we could go to. If we start going to unique 
materials, like explosive rounds, 30 millimeters, armor-
piercing fin-stabilized discarding sabots, not too much of that 
in the commercial sector, nor is there equipment set up to be 
able to handle that.
    That is why I have gone back to the program executive 
officer. We have a new program executive officer, and I 
specifically told him his job is: find alternative sources 
worldwide that we have that can guarantee us to be able to 
produce these.
    If we need to establish a contract with another source--I 
was in a factory in Korea. They used to supply us basically 50 
caliber and below. We stopped it. They have full capability to 
do so again, and that would give us a chance to ensure that 
they are meeting our quality standards and could then have a 
supply that is assured in Korea. Should something occur here, 
we can ship it from Korea to here.
    So that is probably--U.S., Canada, Mexico, then overseas, 
that is the order of sequence we have going right now, where 
there are no alternative manufacturing facilities in the United 
States.
    Mrs. Hartzler. I think that is really smart. And I 
appreciate your efforts there. That makes a lot of sense.
    Speaking of Lake City again, I know that we are investing--
there are 12 modernization projects there, and they are 
receiving quite a bit of funding. So can you walk me through 
some of the facility modernization projects that are going on 
there?
    Secretary Jette. Sorry. I haven't memorized them all.
    Mrs. Hartzler. That is a big book.
    Secretary Jette. Lake City.
    So we have a primer component wash system update. It is a 
$2.8 million effort. In that facility, when you create the 
primer, you have to rinse out some of the chemicals and then 
recover the primer material itself from that. So this is a 
facility upgrade so that we can recover more of the primer 
material and decrease our output pollution.
    Mrs. Hartzler. Okay.
    Secretary Jette. 5.56 clip line upgrade, which is $7.7 
million. If you have 5.56 in a clip so that we can feed it 
through a machine gun, we have to have all those clips produced 
and then be able to snap them together in an automated fashion. 
So it is just an enhancement to the current facility.
    Safe pack unload, 2.5. This, again, is just an upgrade to 
the 5.56 production capability at that facility. $8.45 million.
    By the way, the 5.56 is--tremendously interesting to watch 
the machines. And if any of the committee members would like to 
go out, I would like to extend an invitation to come to any of 
these facilities and see what we are talking about.
    There are two lines at Lake City that are really 
interesting. They happen to be--I am not sure if they are 5.56 
or they are 7.62, but one line is literally the one that 
produced the--with the machines from World War II. It is still 
functioning today. That is a big factory that produces a 
quantity of them.
    In the other facility, we have several lines that produce 
an equal round today on a totally different production 
capability. Those lines--one line produces what that other 
building produces in a day.
    So the technology difference and what we have an 
opportunity to do is tremendous. That is why improving our 
5.56--I have to tell you, I don't know what an ``AD BAAP 
facility upgrade'' is, but I will find out for you.
    Neutralization upgrades.
    I am just going to go down this and make sure that I give 
you the more detailed answers.
    Mrs. Hartzler. Well, yeah, why don't you just get back with 
me? I know time with our other members and stuff. But I sure 
appreciate it. Thank you.
    And I had another question, if we will have time at the 
end, but I yield back. Thank you.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Norcross. Ms. Sherrill.
    Ms. Sherrill. No questions, Mr. Chairman.
    Mr. Norcross. Mrs. Hartzler.
    Mrs. Hartzler. Sorry. Yes, I will ask my last question.
    General Daly, in the written testimony, you talk about the 
2019 Single Manager for Conventional Ammunition annual report 
and the performance measures, and I found this very 
fascinating.
    As far as the acceptance test, a 99.4 percent pass 
frequency, which is important. If you get a bullet, you want to 
make sure it's going to work. 99.6 percent as far as inventory 
accuracy count, physical inventory, so what is actually there 
versus what is in the inventory. I mean, that is amazing. 98.6 
percent of the orders filled, perfect orders, for distribution 
management category.
    The one that I was curious about, though, is acquisition 
management category, where it was only an 84 percent on-time 
rate. And that deals with delivery dates. So why do we have a 
discrepancy there in our delivery dates being only on time 84 
percent?
    General Daly. So, Ranking Member Hartzler, three of the 
four, as you mentioned already--Dr. Jette, I don't know if you 
want to take this piece on acquisition management. Because, 
really, the metric is associated with suppliers to the organic 
industrial base and the timeliness for them to supply to 
support production and manufacturing. So----
    Mrs. Hartzler. Okay.
    General Daly. And, again, the 2020 report is forthcoming, 
and, quite frankly, we are going to fall short again on 
acquisition management.
    Secretary Jette. Yes, ma'am. So there are two pieces that I 
am trying to get a better handle on.
    One of them is the supplier delivery schedule. It appears 
that the delivery schedule--even with COVID, we were pretty 
good at keeping up with the delivery schedule or compensating 
with our current on-hand stocks.
    Another thing that contributes to that and our late 
deliveries is late arrival of money. And so, if I get an order 
from the Air Force and I don't get the money until a little bit 
later, it slows down the process. But they usually tie their 
delivery date to the order date, not delivery date to the 
funding date. So----
    Mrs. Hartzler. So is that a function of Congress? Is it 
because of us? We are late in getting approval of the budget, 
and so that is why there is no money? Or is it just a problem 
within the Air Force or some other Pentagon function that they 
are not sending the money out?
    Secretary Jette. So I think--so this was an interesting--
great question.
    So I went back to the staff when I rooted this out, and I 
said, well, you know, why are we waiting? Don't we have 
investment? And I started thinking about it. This is an 
acquisition, so it is a procurement action. Well, I can't spend 
procurement dollars until I have the procurement dollars.
    But that is not the case in all cases for how we manage all 
things. For example, General Daly has an AWCF, a working 
capital fund. So he knows he is going to have demand of a 
certain type; he just doesn't know exactly when the date is 
going to occur. So he can expend some of his working capital 
fund in order to procure items that have long lead times prior 
to the order coming in and the funding coming in. It smooths 
things out.
    And I said, why don't we have a working capital fund for 
munitions? And the answer I got back was, well, we used to, and 
there were some problems with how it was managed, and so we got 
rid of it.
    And so I have told my staff--and I have asked General Daly 
to help, since he does manage effectively a working capital 
fund--I think that we need to revisit that, as to whether or 
not to reestablish a working capital fund, put in enough 
funding to level out these shortcomings as funding and orders 
flow on different dates. And I think that that may have a 
significant improvement to our late delivery schedules.
    Whenever somebody tells me that you cancel something 
because somebody mismanaged it, then fix the mismanagement. 
Don't eliminate the methodology.
    Mrs. Hartzler. Yeah.
    Secretary Jette. That is what I think we are trying to do.
    Mrs. Hartzler. Sounds good.
    General Daly. Ma'am, if I could. So Dr. Jette and I are 100 
percent synched on this. And I think what we have had is a 
self-constrained firewall between GOCOs and GOGOs. And what we 
are pledging, going forward, is this comprehensive approach 
where maybe some of the things we are doing in the GOGOs can be 
used at the GOCO level and vice versa. And this gets at the 
efficiencies to really go after modernization for the future.
    Mrs. Hartzler. Sounds good. Thank you.
    I yield back.
    Mr. Norcross. Well, I didn't hear anybody take you up on 
watching the bullet machine, but ``How It's Made'' is one of 
the best shows on TV. Just the ingenuity of engineers and 
builders in this great country; 1940, your buildings are still 
working, maybe not as efficient, but they know how to do it.
    I would like to thank the witnesses for coming by today. 
There are a couple items we will follow up with. But we are 
adjourned.
    [Whereupon, at 2:29 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           September 22, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 22, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 22, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. NORCROSS

    Secretary Jette. Numerous private ammunition producers, foreign and 
domestic, have approached the Army with unique capabilities. The Army 
has researched many of these and procured some to provide our 
Warfighters with the greatest available capability. Some examples 
include sniper ammunition, shoulder-launched munitions, advanced 
propellants, advanced artillery components, and potentially safer 
fuzing technology. Private industry is a key enabler in support of our 
Warfighter's lethality and is critical in meeting our National Military 
Strategy requirements.
    Private industry is essential to our Assured Munitions approach. 
Domestic production is a combination of government and commercial 
production. Commercial entities produce many of the key feeder 
materials and participate in various intermediate steps in production 
such as milling of propellant and production of 155mm artillery 
casings. The Army also leverages direct commercial production for 
unique rounds such as sniper ammunition. While industry contributes to 
the Army's munitions production in this manner, none are situated to 
replace the full breadth or volume of the Army production requirements 
as the Single Manager for Conventional Ammunition. The Army's organic 
industrial base is a unique and essential capability.   [See page 21.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Secretary Jette. 1. Primer Component Wash System Upgrade (cost: 
$2.80M): The legacy process uses approximately 13M gallons of water 
annually and is manually executed by operators exposing them to harsh 
chemicals and detergents. These upgrades automate the cleaning process, 
increases process efficiency 50 percent (%), decreases wash time by 
50%, and recycles 60% of chemicals and rinse water. Furthermore, citric 
acid replaces sulfuric acid, which reduces the risk of chemical burns 
to the operator and is more environmentally acceptable. These upgrades 
dramatically increase operator and environmental safety while 
dramatically decreasing water use.
    2. 5.56mm Clip Line Upgrades (cost: $7.70M): The legacy system has 
numerous maintenance issues and is obsolete as classified by the 
original equipment manufacturer. The replacement system produces at a 
similar rate, but utilizes robotics to pack rounds and advanced vision 
inspection technology to verify packing accuracies. This new system 
increases accuracy, reduces maintenance downtime and increases 
throughput with increased packaging efficiencies.
    3. 5.56mm Safe Pack Unloader 2-5 (cost: $8.45M): The legacy 
technique of bulk loading 2,000 primers resulted in a Hazard 
Classification of 1.1 (Mass Detonating). Safe Pack upgrades have 
significantly reduce the Hazard Classification to 1.4 (Moderate Fire) 
by separating primers individually in a plastic tray. The plastic trays 
enable the system to hold 2,013 primers per tray and ten trays per Safe 
Pack. This has resulted in a significantly safer operation.
    4. Advanced Armor Piercing (ADVAP) Facility Upgrade (cost: $9.74M): 
Established a new manufacturing area with the required security 
infrastructure upgrades to support manufacturing of classified small 
caliber ammunition items at a full production rate.
    5. Advanced Armor Piercing (ADVAP) Long Lead Equipment (cost: 
$9.36M): Procures a bullet assembly press, a cartridge loader, a vacuum 
propellant delivery system and a deluge fire suppression system that 
will be installed in the classified manufacturing area in support of 
ADVAP full rate production.
    6. Building 81 Neutralization Upgrade (cost: $15.50M): Building 81 
supports the neutralization of energetic wastewater produced during the 
manufacturing of explosive materials. The legacy process is labor 
intensive and results in a significant hazard during the periodic 
cleaning of residual solids that accumulate in the tank. These facility 
upgrades automate the neutralization process with a Distributive 
Control System used to operate the existing energetic manufacturing 
process. Other hardware upgrades, such as the use of a round shaped 
tank vice a square shaped tank, effectively removes the operator from 
the neutralization and cleaning processes.
    7. Prototype Energetic Capability (PEC) (cost: $16.40M): Existing 
buildings are sited, through the Department of Defense Explosive Safety 
Site Plan process, that authorize production of specific items using 
specific quantities of energetic material. It is difficult to evaluate 
development items and energetic processes that fall outside of the 
approved site plan. Numerous energetic small caliber ammunition items 
are currently in development that will transition to LCAAP for full 
rate production. The Prototype Energetic Capability project establishes 
a facility at LCAAP that is sited (authorized) to conduct manufacturing 
studies on developmental energetic items and processes. It will act as 
an intermediary step between the research and development facilities 
where these items are developed, and the production locations on LCAAP.
    8. Next Generation Squad Weapon 6.8mm Equipment/Planning (cost: 
$40.0M): The outcome of this process will be an approved design package 
with related deliverables ready for future facility construction use.
    9. Water Treatment Plant (cost: $40.0M): Scheduled to be complete 
by April 2021 and will ensure LCAAP receives an uninterrupted supply of 
purified water required to support production. It was also ensure 
ancillary activities (i.e. steam generation) and the LCAAP workforce 
have potable water for use.
    10. Building 3 Roof Replacement (cost: $8.0M): Scheduled to be 
complete by December 2020; will replace a failing roof that is no 
longer safe to work under.
    11. Covered Walkways in Explosive Phase I (cost: $4.1M): Project 
was completed in August 2020 in order to protect explosive material as 
it is moved between adjacent buildings.
    12. Primer Assembly Wing Building 35 Heating Ventilation and Air 
Conditioning (HVAC) design (cost: $2.4M): Project was completed in 
August 2020 and replaced a 1970's era HVAC system that no longer 
controlled temperature and humidity at acceptable levels to meet 
explosive manufacturing standards.   [See page 25.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BACON
    Secretary Jette. The Army approved the Individual Assault Munition 
(IAM) requirements in March 2016. The Army initiated the IAM program of 
record in June 2020 and plans to provide Soldiers with this capability 
starting in 4th Quarter Fiscal Year 2024. The program office has 
identified several production ready IAM candidates that could 
potentially meet the requirements, including lethality and weight 
parameters. The acquisition strategy will evaluate, through 
experimentation, several mature fielded systems in order to make an 
informed and affordable decision.   [See page 14.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 22, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. GOLDEN

    Mr. Golden. Dr. Jette, you spoke about the advantages of polymer 
casing ammunition, particular in terms of weight. I would note that in 
recent years, additive manufacturing has used advanced composite 
materials to make meaningful and promising contributions to the defense 
industrial base. As the Army looks forward towards modernization of its 
ammunition industrial base, what role do you think additive 
manufacturing will play? Do you believe Congress is adequately funding 
the research and development of this technology?
    Secretary Jette. Additive manufacturing is most appropriately 
suited to small runs due to the generally slow production rates. It is 
excellent for rapid prototyping. Advancement in polymer casing can 
benefit from but is not dependent on additive manufacturing. The Army 
continues to work with industry and its lab system for the benefits and 
maturation of polymer casing ammunitions.
    Yes. Continued Congressional investment in the ammunition 
industrial base allows the Department of Defense (DOD) to realize the 
benefits of additive manufacturing and its impact on the production of 
ammunition and ammunition components. Future investments could include 
computing infrastructure, additive manufacturing enabling production 
processes, adaptive tooling and machining, design engineering, and 
digital engineering frameworks. Realizing the full benefits of additive 
manufacturing production will require a transformation of our legacy 
production processes, along with advances in additive manufacturing 
technology, to meet the high production rates associated with 
munitions.

                                  [all]
</pre></body></html>
